                                           UNITED STATES DEPARTMENT OF EDUCATION 

                                                OFFICE OF INSPECTOR GENERAL 

                                                                     REGION V 

                                                             III NORTH CANAL. SUITE 940 

                                                               CHICAGO. ILLINOIS 60606 


                                                                   FAX: (312) 353-0244
    Audit                                                                                                                                      Investigation
(312) 886-6503                                                                                                                                (312) 353-7891




                                                                                     Control Number ED-OIG/A05-D0027


             Mr. David Batchelder, Director                                                                NOV 2 1 2003
             James Madison Preparatory School
             5815 South McClintock Drive
             Tempe, AZ 85283

             Dear Mr. Batchelder:

             This Final Audit Report presents the results of our audit of the James Madison
             Preparatory School's (School) use of U.S. Department of Education (ED) funds for the
             period July 1, 2001, through June 30,2002 (2001-2002 fiscal year). The objective of our
             audit was to determine if the School expended ED funds according to the law and
             applicable regulations.

                 Our audit disclosed that the School generally expended Public Charter Schools Program
                 (PCSP) grant funds in accordance with the law. However, the School used $5,601 1 ofthe                                                        "
                                                                                                                                                               ,
                 $150,000 in PCSP funds it received for the 2001-2002 fiscal year for costs that were
                 unallowable. We recommend that the Chief Financial Officer, Office of the Chief
                 Financial Officer, in conjunction with the Deputy Under Secretary for the Office of
                 Innovation and Improvement, instruct the Schoolto refund $5,540 to ED and develop and
                 implement policies and procedures to provide reasonable assurance that it uses federal
                 funds for activities that are allowable under the law.

                 We provided the School with a draft of this report. The School concurred that it did not
                 have policies and procedures in place to provide reasonable assurance that ED funds were
                 expended for allowable activities during our audit period. However, the School generally
                 did not concur with the finding and recommendation to refund PCSP funds to ED. The
                 School provided a detailed explanation of why the costs should be considered allowable.
                 Our review of the School's response caused us to change our finding and
                 recommendation 1.1 in this report by eliminating some costs that we initially identified as
                 being unallowable. The School's comments are summarized in the body of the report
                 and included in their entirety as an attachment.




                 I The School charged $150,739 to the PCSP grant, $61 more than the $150,678 it had available for the 

                 2001-2002 fiscal year ($150,000 received for the 2001-2002 fiscal year and $678 the School carried over 

                 from the prior year). 



                        Our mission is to promote the efficiency, effectiveness, and Integrity of the Department's programs and operations.
Final Audit Report	                                                                    ED-OIG/A05-D0027


                                          AUDIT RESULTS 


Finding No. 1	 The School Charged $5,601 in Unallowable Costs to the PCSP
               Grant

For the 2001-2002 fiscal year, the School used $5,601 in PCSP funds for costs that were
unallowable. We reviewed documentation for all 92 expenses totaling $150,739 charged
to the PCSP grant for the 2001-2002 fiscal year.2 Seven expenses were for general
operational costs. These costs included office supplies, finance charges, monthly fees for
digital subscriber line service, and monthly copier lease payments.

The Elementary and Secondary Education Act of 1965, as amended by the Improving
America’s Schools Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter
School Expansion Act of 1998,3 allows charter schools to spend funds for activities
related to post award planning and design of the educational programs and initial
implementation of the charter school. Activities related to initial implementation may
include (a) informing the community about the school, (b) acquiring necessary equipment
and educational materials and supplies, and (c) acquiring or developing curriculum
materials. Charter schools are allowed to pay for other initial operational costs not met
by other sources provided that those costs are directly related to the purpose of the PCSP
grant. The intent of the PCSP grant is to pay for necessary items and services that would
support the initial implementation and operations of the school while also allowing the
school to become financially independent.

According to Office of Management and Budget (OMB) Circular A-122, Cost Principles
for Non-Profit Organizations, a grantee must keep records that fully show how it used
federal funds. Attachment A, Section A(2)(g), states that for a cost to be considered
allowable, the specific cost must be adequately documented.

The School charged unallowable costs to the PCSP grant because it did not have written
policies and procedures in place to provide reasonable assurance that the funds were
expended on activities allowable under the law. Instead, School officials primarily relied
upon the advice and guidance of a third party service provider. The School hired a third
party service provider to help write the PCSP grant proposal and to provide financial
services for the School. School officials relied on the advice from the third party service
provider because School officials did not have knowledge of the applicable laws and
regulations that was sufficient to properly execute the PCSP grant. Had School officials
obtained sufficient knowledge by either reviewing their PCSP grant budget or contacting
an ED charter school program official before charging these operational costs to the
grant, the School may not have expended PCSP funds on unallowable costs.



2
  School personnel provided invoices and receipts for 21 PCSP cash draws from the Education 

Department’s Central Automated Processing System, Grants Administration and Payment System. 

However, they did not provide us with accounting records that listed all the transactions charged to the 

grant.

3
  The law was further amended by the No Child Left Behind Act of 2001, Title V, Part B. 



                                                      2

Final Audit Report	                                                               ED-OIG/A05-D0027


Because School officials used PCSP grant funds to pay for $5,601 in general operational
costs, the School was unable to use those funds to purchase items that would increase the
chances of the School becoming financially independent.

Recommendations

We recommend that the Chief Financial Officer, Office of the Chief Financial Officer, in
conjunction with the Deputy Under Secretary for the Office of Innovation and
Improvement, instruct the School to

1.1     	refund $5,5404 to ED; and

1.2 	   develop and implement policies and procedures that provide reasonable assurance
        that ED funds are expended on activities that are allowable under the law.

Auditee Comments

The School’s Director agreed that the School needed to develop and implement policies
and procedures to ensure that it expends ED funds on allowable activities. However, the
School generally disagreed with the finding and recommendation 1.1. The School agreed
that the finance charges were an unallowable cost but provided an explanation of why it
considered the other costs to be allowable. The other costs included payments for
magazine and newspaper subscriptions and office supplies, monthly fees for digital
subscriber service, and monthly copier lease payments. The School commented that the
teachers and students used the magazine and newspaper subscriptions in American
history and government courses. The School explained that the office supplies, monthly
digital subscriber service, and copier lease payments were used to develop and implement
the School’s curriculum and to market the school in the community.

OIG Response

Our review of the School’s response caused us to change our finding and
recommendation 1.1 in this report by eliminating some costs that we initially identified as
being unallowable. However, we found no basis for changing our position that the office
supply costs, finance charges, digital subscriber service fees, and copier lease payments
charged to the PCSP grant were general operational costs and should not have been
charged to the grant. We asked the School to provide additional documentation, such as
accounting records, invoices, and receipts, to substantiate its claims that PCSP funds
were used to pay for initial implementation costs of the School and not for general
operational costs. The School was unable to provide documentary evidence supporting
that these costs were incurred for the initial implementation of the School. The School’s
Director only provided us with signed affidavits from himself and the Administrator for
the School, stating that the costs were related to curriculum development. Without

4
  The School charged $150,739 to the PCSP grant, $61 more than the $150,678 it had available for the
2001-2002 fiscal year. Therefore, we only recommend recovery of $5,540 ($5,601 in unallowable costs
less $61).


                                                   3

Final Audit Report	                                                                 ED-OIG/A05-D0027


sufficient documentation showing how the School used PCSP funds, we do not have
assurance that these costs were used for allowable purposes under the law and applicable
regulations.


                                           BACKGROUND

The purpose of the PCSP is to provide grants for the planning, design, and initial
implementation of charter schools created by members of the local community. Grants
may be made for a period of up to three years. Funds may be used to plan and design the
education program of the charter school and evaluate the effects of charter schools.

Charter schools are governed by the charter school legislation enacted in the Elementary
and Secondary Education Act of 1965, as amended by the Improving America’s Schools
Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter School Expansion Act
of 1998.5 Charter schools that receive a grant directly from the federal government must
also adhere to regulations listed in 34 C.F.R. Parts 75, 82, and 99.

The School received its charter from the Arizona State Board for Charter Schools and
opened in August 2000. The School applied for a PCSP grant and received approval
from ED on May 3, 2000. The grant provided the School with startup funding for a
three-year period. For the 2001-2002 fiscal year, the second year of funding, the School
received $150,000.


                        OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if the School expended ED funds according
to the law and applicable regulations. Our audit covered the award ED made on July 24,
2001, for $150,000, PCSP funds of $678 the School carried over from the prior year, and
costs charged to the PCSP grant for the 2001-2002 fiscal year.

To accomplish our objectives, we

• 	 interviewed School personnel;
• 	 reviewed the School’s records for 92 expenses totaling $150,739 charged to the PCSP
    grant;
• 	 selected a nonstatistical random sample of 5 of the 92 expenses (exclusive of 11
    expenses we identified as unallowable) and asked for supporting documentation such
    as invoices and receipts. We then reviewed the invoices and receipts to determine
    whether the expenditures were allowable and supportable.

We performed our audit work between December 2002 and July 2003. We visited the
School on December 5, 2002, and discussed the results of our audit with School officials
on March 24, 2003.
5
    The law was amended by the No Child Left Behind Act of 2001, Title V, Part B.


                                                     4

Final Audit Report                                                       ED-OIG/A05-D0027




Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of audit described above.


                     STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we did not assess the adequacy of the School’s management control
structure applicable to all ED awards because this step was not necessary to achieve our
audit objective. Instead, we relied on testing of the School’s compliance with the PCSP
law and applicable regulations. Our testing disclosed a material weakness in the School's
management controls over ED awards. The School did not have policies and procedures
in place to provide reasonable assurance that PCSP funds were expended according to the
law. This weakness is discussed in the AUDIT RESULTS section of this report.


                           ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
ED officials.

If you have additional comments or information that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following ED officials,
who will consider them before taking final Departmental action on this audit.

                       Jack Martin, Chief Financial Officer
                       Office of the Chief Financial Officer
                       U.S. Department of Education
                       400 Maryland Avenue, SW, Room 4E313
                       Washington, DC 20202

                       Nina Shokraii Rees, Deputy Under Secretary
                       Office of Innovation and Improvement
                       U.S. Department of Education
                       400 Maryland Avenue, SW, Room 4W317
                       Washington, DC 20202

It is ED’s policy to expedite the resolution of audits by initiating timely action on the
findings and recommendations contained therein. Therefore, receipt of your comments
within 30 days would be greatly appreciated.




                                             5

Final Audit Report                                                     ED-OIG/A05-D0027


In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act.




                                             Regional Inspector General
                                             for Audit

Attachment




                                                                                           :-........ 


                        "   .




                                            6

Attachment



                                                                  James Madison Preparatory School
                                                                                              58U S, M«lirt1Od< ~
                                                                                                     Tempe. AZ852S3
                                                                                 Ph 48O-J6..2JoI!i F•• ~
                                                                        -   ....~~....a: flledu .... f""!JOooI.......
       8 Odob .... 2OOJ

       Mr. Rickud J. Dowd
       RqlorW Inspector General for Audit
       li'nlted 5t~u Dq>mment of Eduation
       Offi« of In5pector G6>en.1
       Rqion V
       lit N. CanaL SQile 'UO
       Chiugo, Tl60606

       Mr. Dowel.
       W~ ..... In ~dpl of YOW" Oroft Audit Riport of 12 Septem~r 200J. PlcaN con.ldn thi.IMtcr , ,,bmlttcd
       on behalf of the $thoul in resPOnMI to the Ontl Audit Report. We IppM.;".I,. th e opportunity 10
       (Ommen!. II U OU r W\derst<lndfng that Ih. draft It not fin.al and il' .ubJect to rc:vfaion Mfon th~
       completed r~port IIr.lu,ed.

       F1nd.inB No. 1
      The auditors found eleven uNlllowab~ expmditut~ totllirlg $5710. Thete WftS are identiJlN as includ.lng
      ~pa~ and INIgaW\e suhKripliont.. offI«, suppl"" ftn.ance charges. monthly fee for DSl setvke, and
      monthly copier kue fM.ylMntl.

      AI Iden~ m the findings. aOo_ble v:pen_ reLUe 10 !hoM - Activities A!lated 11;1 mltial implementltioo
      lMy include (a) inIonnitlg the comtrnwty .J'OIII the school. (b) <lcqllirtni ~ ~uiplllalt and
      ed\I(.IItionaIlMtviaIs and supplB. and (c) acquirifl( or ~\opin.a CI.I1rlo;vIar mlltetiab. 0Iarte -chools llI"e
      Allowed to pay for othet initW openotiona.! COStl nol ~ by other _fI.'eJ provtded tNt thosoe costs ~
      d~ mated to ~ purpose of the PCSP grant. The in\lellt of tIw: PCSP Jr'I)! is to p.y for Ill'CesSIITY items
      .nd soer'\IiceI tNt would support the initial imple<Mnt.tion and op6atio\ls of the ""hoot whilo. abo .no..ing
      the lCh<oI to ~Ine ("maneWly indRpelld~l- In ow comtMIItl "'" will rem 11;1 ~ <lIJow.ble
      ~turc:s as part a. part b. OT parle.


      School Conunenh on Expend.itura
      N-'pa.- and ~ ,..bscriplio~
      Madison Prep Is. <:ol1ege prep ~hool foc:uillld on A~an History and CovemDlftll. All O{OW courHS
      Indude historical ~es. and in many 01 OUT d _ cunocnl ~ InI also stud.ll!d In comp.lITison to
      historical prectdentl. The ~pape-r 5Ub$c:ription (A2 Capitol Times) was ordered and utiliud IS. plort of
      the Ari.wna history and Am:erlcan Go"",mmentcouTlH!$. as it i:< tnt bat t"",aJlMJ'ft reporting on 'bite and
      ledtral govemmentisrues. Masuine tNt "'~ ordered include the Smltl\tonian, Am.erican Ente~ and
      USN".... and World Report. The t9chen developed tht cuTTlcu.lum to include such pedodkal materials,
      and include CW"Ter>t and recm! articles in their 00lIt'W pli-nning and implementation.

      Part of the development of a new school includes thedevelopmenl of a new Ubrlry W"ithtn the $Chout and .
      sdlool llmry IN.n~ books and periodicals and CODiputers th.tstudentl an """ for _1'Ch and ,tudy.
      Madl$on Prep" 5(hooilibrary com:l5ts of some dOlUlted boou and ~tftl(e mlten_b, Intemet .~. <lnd
      sOllie doouted periodic"'" many of ..-hleb ~ quite dated.

      The school u$td. the PCSP fundI fot these: 5ub5criptiO"$ b«a.ue the IUe of these publicetlolU is an inl:tgra!
      put of OW" al.Triculum (per I"'rt c; Kquirlng or dev..loptng currlcu.1a.r mamtals). for both in<1ass and UrnI)'
      rtfere:nct purpoiM:S. It Mould be noted th.it there were no $ubscriptiolu for publlC<l\:loJu unn!Jated to
      Madison !'rep's curricular etnphases, and "-e ~p«tlW.ly request tNt t"-~d.lture be considerM IS
      ~Uowed   Wld.er parl Co
                                             H!STOIlI ... !lIT MAGTm ... V!TAr:
                                                "H&torv il ltle TlOCMrol L"·
                                                             ,




                                                            1
                                                                      James Madison Prepara tory School
                                                                                       Sll' s. M<CIfnIOd Orr­
                                                                                                            T.... po. A% SS2Il
                                                                                                        F•• 4Ii).345..()(I5
                                                                                        "' ...,.:u5-:l106
                                                                              _ .JIIAd'-""""".....   ......,~com



Ofr>c~ Supplln
OftiasuppUes cha:rp $Ubmi~ u PCSP~itwes include i!etlll.-ded 10 implanen r tM M.dison
PTep .:ulTkuhlm dlU"'lI 0<1' fim couple of ~ .... Some of these ,upplln. _hili- consumable, .... 5till rntes .. J
10 OUt «>ursa. Senne 01 thew wft't J"'blishing luppl;e. (C"OY<OI¥, blndln". ~.).nd. prlntmg for incUvidu.ol
coutM m.lftWs. Some of thcac ""ppl;"" wero! uoed 1M " .. rUtin&"lhea.hoolln Ihe community.              oIfke   n...
IUppliH expmdi_ do not relleo;llN ..,hoors entl ... office supply coltllumplfon lor the y""'. nor do they
rcfl«1 oft>c. supplies 10, ad.tl"\lrU$trarr-. use 10 a s'snif,nnl dq.-.e. We respectfu.Uy ~cst INt Ihe$O!
... pondltuHll b<I cOIUIduec! as .Uowed under ","rto ... b. and c.

fllUlnce charsu
Th. flnance ch.r," fro .... A1li~ Boo k CompAny w ..... 1ncluded On.n invoke for WJ<tbookll th.rr!oe school
plld In fuU from PCSP funds. We concur with the findlnS th.t th_ finance chafJft ..... un.Uo .... ab~.

 Month ly ' _ 10< c st ..,......«
 For W month. du. ing 1M YUT. M. dison Prep teacl>eN.", . ctlvely eng.ge-d in the building and _toolir>C of
cun;.:uJwn. Much of thb happeN dwinS!he summer months. and "Orne 0111 happeN durin3 Ihe..,hool­
ynr br«ks. OurU>a ou.' (inrlhl'ft}'8n the time.nd effort inYuted in the devdopment. ev. lu.tion.
 revi,ion and integration of tM curriculum has been gre. l. Th. UH of I"CSPfund. foe Iheooe DSt payments
 reflects me cl'ftiul llnponuu:e of the Internet to acquiring and developing of eurric"IUD\ m.l!rriI.ls. Ourtng
,umlne' and b"'.ks the only ..... of the DSt....-v1ce hn """ f .... cutrlt:uJum ,_nch and dev.»""'.... t. TM
OSL fee ,ubrnlt\oed for PCSP funds do notreflect thoo IDe ofDSL IhrouSh the ..... JOl"ity <II the yeu. bul rath.r
reflocto !he U"", of DSL ... a vttaJ tool 10. tNd\us. w~ ftSp«tfulIy n,quesl that rI>eH e><penelllutft be
(0IUI!dered as aUowed und .. r part c.

Monthly     cop."" luse p~ymm!:l
                                                                           r.e. m.... _ to .... our own
In d...-Joping and prepuin,g currlcul ....... te .....1s for c1_,.1 thne. It ....
copler ..!her than. commerrial cop)ing/bindinf~. Th .. rna. the mosl _                 ... hen ou, ~ use b
lowu than It... contraded llDUIunt. du",,& tM .ummft and In months ... h<:nl fewer copts • .-e m!lde. n.e
copk,\eue ","ymenl ihtol ...., ct.urd 10 the granl helP'" cove" the c..t hw. pcwrion of the cop/16 made fo,
n.rr1cula, m.terio ... In-hou.oe during tM )'U" W.. rap«U'ulry n,quet tn.1 thae u;pendJtu_ becon.kI ........
... alIo..-.d "nda- part c.

M.~enl Control,
The other 161.... r.iH<\ in YO'" letber i$ ~..dfng the m alftlal_knea of onanal'fmenl control!;. W ...~ in
the proa!:U of reworkiJ>, OIU tinandal rystem. The impacl 01 the problems with tM third party bwu­
oervIc" firm lou heft> . ubstllnti.L As to corrKtive action on th .. !:M.... we....;JI be wo.kjn8 with our
KCOUnttns film on .... an&&""' .... lcontrob.nd d,..,.lopin8'" expmdltu ... ~"'w p~ Internally. Any
req..... t for granl ,",~tu.res ...1lI "" ~;"-ed by tho: Administr.tor and the Oiftdor uu:I COlnpanrd
d.lrectly 10 the actual g''''1 descripllon of .llo.... bl. 8><penHI. If there .... anyq"lIStionf abou t the
approprl._ 01. gtven ""11.1«11 then tJSOofEd staH ..;D becontlCh!d and thc!r ruUng will be d ocumc:ntecl
b\   ""'tins,

School ,,"ponse 10 R eco~ dalion$
1.1     A. ' '''~ .hove. the school believed th.t tho! UM of srlnl fundi; In order to accoD\p/J$h cun lcll1&r.nd
        o'ganiullloruol goal. In the UJly dlys of tho: ..,hool "'...... pol1.nt . nd .Uo.... ble. Th. school
        T8pectfully Metu""", that the tlUpeo;torc.n....1 will tal<e into Keounl the actu..ru se of tt.e.e
       expendIture end comldet them 10 be qualilied expenOftIn Ilghlof P.Tb .. I:>. arod c . AJo 10 the
                                         111S'TOI\1" bT ""' ''C IITlI II     VTT""~
                                            "HilIOty .. It!e   leo<;r.... 01 life-
                                                               •




                                                               2

                                                           James Madison Preparatory School
                                                                            SflS s. JokClinlDc:k o.tv.:
                                                                                               T..... pt.   "' Z~2&:'I
                                                                              ""~2306".K~
                                                                 ___.... dloonrrq.....
                                                                                  ......_pt'tfI8oool«>m


        spec:lflc nf"'f'ditu=, the school COn<:Un _ Ith tho! audilOn lhat the finance cha"S"S of .5771.03 doou)d
        not bca1lowed and this aDlounlshould be remanded to the USOotEd.
t .:    Tho! Khool Concun with thh recommendation and win corrunenao ~ ~~lop1\'tent and
        Implo!mentlltion of poticia. and procedur~ I<> add~. Ihit _om,mendallon. n-~ polio: .... and
        prGCftiu= will be dTafkd with    m. aMbtanceof OUT accountllnt IIJ\d Impkmentoed with in OU T
        ,y5klN by 31 OecftnWr 2003.

Thank you for the oppoTNniry to .-espond to this d raftaudil report. and thank yo ... In advance toT yOUT
c_idCTat!on .




                                                     3

